Annual Percentage Rate
(APR) for Purchases

36.0%

APR for Cash Advances 36.0%
Paying Interest

Minimum Interest
Charge
To learn more about factors to consider when applying for or using a credit card, visit the
website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

O

For Credit Card Tips
from the Consumer
Financial Protection
Bureau

LI

N

Set-up and
Maintenance
Fees

$79.00
$96.00

$144.00

N

Transaction Fees

$8.00

5%

E

3%
Penalty Fees
$39.00

How We Will Calculate Your Balance:

PY

O

Billing Rights:

C

$39.00

FEES AND INTEREST CHARGES:
FEES AND INTEREST CHARGES:
INTEREST CHARGES
Periodic INTEREST CHARGES: INTEREST CHARGES
INTEREST CHARGES
INTEREST CHARGES
INTEREST CHARGES
How we calculate INTEREST CHARGES:
INTEREST CHARGE
CHARGE

Average Daily Balance

How we calculate Average Daily Balance and Daily Periodic Rate:

Average Daily Balance
INTEREST CHARGE
Average Daily Balance

INTEREST CHARGE
INTEREST
Daily Periodic Rate

Average Daily Balance
Daily Balances
Average Daily Balance
Daily Balance

O

Daily Periodic Rate
ANNUAL PERCENTAGE RATE
assessed to your Credit Account.
Minimum INTEREST CHARGE:
INTEREST CHARGE

Monthly Fee:

INTEREST CHARGE

N

Annual Fee:

The APR applicable to Purchases will be applied to fees

INTEREST CHARGE

LI

Cash Advance Fee:

Foreign Currency Transaction Fee:
Late Payment Fee:

N

Return Item Charge:

OTHER CHARGES AND IMPORTANT INFORMATION:

Credit Limit Increase Fee:

O

C

Copying Fee:
Credit Insurance:
Express Delivery Fee:
Wire Transfer Fee:
Total Minimum Amount Due:

E

Additional Card Fee:

See the Credit Card Contract for further information regarding this
Credit Account. Retain these important documents.

PY

(3) You must not yet have fully paid for the Purchase.
If all of the criteria above are met and you are still dissatisfied with the Purchase,
contact us in writing (or electronically) at:
First PREMIER Bank
P.O. Box 5524
Sioux Falls, SD 57117-5524
www.mypremiercreditcard.com
While we investigate, the same rules apply to the disputed amount as discussed
above. After we finish our investigation, we will tell you our decision. At that point, if
we think you owe an amount and you do not pay, we may report you as delinquent.
Your Liability for Unauthorized Use of Your Credit Account: You will not be
liable for unauthorized use of your Card or Credit Account. However, to protect
your rights, you are required to notify us orally or in writing as soon as you are
aware that your Card or Credit Account has been lost, stolen or used without
your consent. Certain exceptions apply. To notify us of the loss, theft or possible
unauthorized use of your Card, call us at 1-800-987-5521, 24 hours a day.

A JUDGE OR JURY AND/OR TO PARTICIPATE IN OR BE REPRESENTED IN
A CASE FILED IN COURT BY OTHERS (INCLUDING, BUT NOT LIMITED TO,
CLASS ACTIONS). EXCEPT AS OTHERWISE PROVIDED, ENTERING INTO
THIS AGREEMENT CONSTITUTES A WAIVER OF YOUR RIGHT TO LITIGATE
CLAIMS IN COURT BEFORE A JUDGE OR JURY.
RIGHT TO OPT OUT: To opt out of this Arbitration Provision, you must mail a
written notice to us so that it is postmarked no later than 45 days after we mail
your first Card to you. Your first Card is the one we mail to you at approximately the
time your first Account application is approved. Your right to opt out will not apply
when we send you a copy of your Credit Card Contract or this Provision, or when
we send you an updated version of your Credit Card Contract or this Provision, or
when we send any replacement Card. If you opt out of this Arbitration Provision,
you will retain your right to litigate your dispute in a court, either before a judge or
jury. The opt out notice must include your name, address, and Account number,
must be signed by you (or all of you if there is more than one Account holder)
and must be mailed to us at: PO Box 5524, Sioux Falls, SD 57117-5524. If your
written notice is not postmarked within 45 days from the date we mail your first
Card to you, your right to opt out will terminate, and you agree that the terms of this
Provision will apply. Your decision to opt out of this Provision will not affect your
other rights or responsibilities under this Credit Card Contract.
If we later amend this Provision, we will let you know if you can opt out of that
amendment and, if so, how you can do so.
Parties and Matters Subject to Arbitration: For purposes of this Provision,
“we” and “us” include our employees, parent companies, subsidiaries, affiliates,
beneficiaries, agents and assigns and other persons and entities you assert a
Claim against in connection with a Claim you assert against us. For purposes of
this Provision, “Claim” means any claim, dispute or controversy by either you or
us, arising out of or relating in any way to this Credit Card Contract, your Credit
Account, any transaction on your Credit Account and our relationship. “Claim” also
refers to any interaction or communication between you and us that occurred prior
to or concurrent with entering into this Credit Card Contract, including those now in
existence, regardless of present knowledge. “Claim” shall refer to claims of every
kind and nature, including, but not limited to, initial claims, counterclaims, crossclaims and third-party claims. All Claims are subject to arbitration, regardless
of legal theory and remedy sought, including, but not limited to, claims based
in contract, tort (including negligence, intentional tort, fraud and fraud in the
inducement), agency, statutory law (federal and state), administrative regulations
or any other source of law (including equity). Notwithstanding the foregoing,
the word “Claim” does not include any dispute or controversy about the validity,
enforceability, coverage or scope of this Arbitration Provision or any part thereof;
all such disputes or controversies are for a court and not an arbitrator to decide.
However, any dispute or controversy that concerns the validity or enforceability
of the Credit Card Contract as a whole is for the arbitrator, not a court, to decide.
Agreement to Arbitrate: Any Claim shall be resolved and settled exclusively
and finally by binding arbitration, in accordance with this Provision. Binding
arbitration shall not be required, however, for collection actions we bring in court
if you default on your Credit Account as set forth in the Credit Card Contract.
Furthermore, both you and we retain the right to pursue in a small claims court
(or your state’s equivalent court) any Claim that is within that court’s jurisdiction,
so long as the matter remains in such court and advances only on an individual
(non-class, non-representative) basis. For any Claims covered by this Provision, a
party who asserted a Claim in a lawsuit in court may elect arbitration with respect
to any Claim subsequently asserted in that or any related or unrelated lawsuit by
any other party.
Class Action Waiver: If a Claim is arbitrated, neither you nor we will have the
right: (a) to participate in a class action, private attorney general action or other
representative action in court or in arbitration, either as a class representative or
class member; or (b) to join or consolidate Claims with Claims of any other persons.
An award in arbitration shall determine the rights and obligations of the named
parties only, and only with respect to the Claim(s) in arbitration, and shall not (i)
determine the rights, obligations, or interests of anyone other than a named party,
or resolve any Claim of anyone other than a named party; nor (ii) make an award
for the benefit of, or against, anyone other than a named party. No arbitration
administrator or arbitrator shall have the power or authority to waive, modify, or fail

to enforce this section, and any attempt to do so, whether by rule, policy, arbitration
decision or otherwise, shall be invalid and unenforceable. Any challenge to the
validity of this Class Action Waiver shall be determined exclusively by a court and
not by the administrator or any arbitrator. Thus, you agree that UNDER THIS
ARBITRATION PROVISION THERE IS NO RIGHT OR AUTHORITY FOR ANY
CLAIMS TO BE LITIGATED IN COURT OR ARBITRATED ON A CLASS BASIS.
Arbitration will only be conducted on an individual Claim basis and there is no
right or authority to consolidate or join any of your Claims with any other Claims.
YOU AGREE THAT YOU ARE VOLUNTARILY AND KNOWINGLY WAIVING
ANY RIGHT TO PARTICIPATE AS A REPRESENTATIVE OR MEMBER OF
ANY CLASS OF CLAIMANTS PERTAINING TO ANY CLAIM SUBJECT TO
ARBITRATION UNDER THIS PROVISION.
Voluntary Waiver of the Right to a Jury Trial: As a result of this Provision,
neither you nor we have the right to litigate any Claim in court or the right to a
jury trial on any Claim, except as provided above. YOU AGREE THAT YOU ARE
VOLUNTARILY AND KNOWINGLY WAIVING ANY RIGHT YOU MAY HAVE TO
GO TO COURT OR TO HAVE A JURY TRIAL.
Governing Law: This agreement to arbitrate is made pursuant to a transaction
involving interstate commerce and shall be governed by the Federal Arbitration
Act, 9 U.S.C. §§ 1-16, as it may be amended. If for any reason the Federal
Arbitration Act does not apply, the substantive law of the State of South Dakota
shall govern this Provision.
Arbitration Location and Procedure: Any arbitration hearing at which you wish
to appear will take place at a location within the federal judicial district that includes
your billing address at the time the Claim is filed. The party bringing the Claim
may file its Claim at the American Arbitration Association (“AAA”), or an arbitration
organization mutually agreed upon by the parties. The arbitration organization that
is selected will administer the arbitration pursuant to its procedures in effect at
the time of filing, subject to this Provision. If you do not agree to file your claim
with AAA, and the parties cannot agree on an alternative arbitration organization,
an arbitrator will be appointed by a court pursuant to the Federal Arbitration Act.
In the event of a conflict or inconsistency between the respective organization’s
rules and this Provision or the Credit Card Contract, this Provision shall govern.
The arbitration will be conducted before a single arbitrator, whose authority is
limited solely to individual Claims between you and us. The arbitration will not
be consolidated with any other arbitration proceeding. Any decision rendered in
such arbitration proceeding will be final and binding on the parties, except for
any appeal rights under the FAA, and judgment may be entered in a court of
competent jurisdiction. The rules and forms of AAA may be obtained as follows:
American Arbitration Association, 120 Broadway, Floor 21, New York, N.Y. 10271,
website at www.adr.org.
Arbitrator’s Authority: The arbitrator shall apply the applicable substantive law,
consistent with the Federal Arbitration Act; shall apply statutes of limitation; and
shall honor claims of privilege recognized at law. In conducting the arbitration
proceeding, the arbitrator shall not apply any federal or state rules of civil procedure
or evidence. THE RULES AND PROCEDURES OF THE AAA OR OTHER
ARBITRATION ORGANIZATION WILL GOVERN THE RIGHT TO ENGAGE IN
PRE-ARBITRATION DISCOVERY. Either party may, however, request to expand
the scope of discovery. If a request is made, within 15 days of the requesting
party’s notice, the objecting party may submit objections to the arbitrator with
a copy of the objections provided to the party requesting expansion. The grant
or denial of a party’s request will be in the sole discretion of the arbitrator, who
shall notify the parties of the final decision within 20 days of the objecting party’s
submission.
The Arbitrator’s Award: The arbitrator may award any damages or other relief
or remedies that would apply under applicable law to an individual action brought
in court, including, without limitation, punitive damages (which shall be governed
by the Constitutional standards employed by the courts), attorneys’ fees and costs
and injunctive, equitable and declaratory relief (but only in favor of the individual
party seeking relief and only to the extent necessary to provide relief warranted
by that party’s individual claim). At the timely request of either party, the arbitrator
shall write a brief explanation of the grounds for the decision. Judgment upon the
award rendered by the arbitrator may be entered in any court having jurisdiction
thereof. No arbitration award between you and us will have any impact on any

E

N

dispute involving anyone who is not a party to the arbitration, nor will an arbitration
award between us and any other person have any impact to an arbitration
between you and us.
Expenses: Regardless of who demands arbitration, we will pay all expenses
of arbitration, including the filing, administrative, hearing and arbitrator’s fees
(“Arbitration Fees”), to the extent that the Arbitration Fees exceed the amounts
you would be required to pay for filing a lawsuit in state or federal court, whichever
is less. If you have already paid a court filing fee, you will not be required to pay
it again. Throughout the arbitration, each party shall bear his or her own attorney
fees and expenses, such as witness and expert witness fees. If you prevail in the
arbitration of any Claim against us, we will reimburse you for any fees you paid
to the arbitration organization in connection with the arbitration. The arbitrator will
have the authority to award fees and costs of attorneys, witnesses and experts
to the extent permitted by this Credit Card Contract, the administrator’s rules or
applicable law. With respect to Claim(s) asserted by you in an individual arbitration,
we will pay your reasonable attorney, witness and expert fees and costs if and to
the extent you prevail, if applicable law requires us to or if we must bear such fees
and costs in order for this Arbitration Provision to be enforced.
Binding Effect and Survival: You and we agree that, except as specifically
provided for above, the arbitrator’s decision will be final and binding on all parties
subject to this Provision. This Provision is binding upon you, us, and the heirs,
successors, assigns and related third parties of you and us. This Provision shall
survive termination of your account, whether it be through voluntary payment of
the debt in full by you, a legal proceeding initiated by us to collect a debt that you
owe, a bankruptcy by you or a sale of your Credit Account by us.
Severability: If any part of this Provision is deemed or found to be unenforceable
for any reason, the remainder shall be enforceable, except as follows:
A. The parties to this Provision acknowledge that the provision titled
“Class Action Waiver” is material and essential to the arbitration of any disputes
between the parties and is non-severable from this Provision. If the Class Action
Waiver is limited, voided or found unenforceable, then this Provision (except for
this sentence) shall be null and void with respect to such proceeding, subject to
the right to appeal the limitation or invalidation of the Class Action Waiver. The
parties acknowledge and agree that under no circumstances will a class action be
arbitrated.
B. If a Claim is brought seeking public injunctive relief and a court
determines that the restrictions in the Class Action Waiver and/or elsewhere in this
Provision prohibiting the arbitrator from awarding relief on behalf of third parties
are unenforceable with respect to such Claim (and that determination becomes
final after all appeals have been exhausted), the Claim for public injunctive relief
will be determined in court and any individual Claims seeking monetary relief will
be arbitrated. In such a case the parties will request that the court stay the Claim
for public injunctive relief until the arbitration award pertaining to individual relief
has been entered in court. In no event will a Claim for public injunctive relief be
arbitrated.

PY

O

C

ARBITRATION AND LITIGATION
This Arbitration Provision (“Provision” or “Arbitration Provision”) facilitates the
prompt and efficient resolution of any disputes that may arise between you and
us. Arbitration is a form of private dispute-resolution in which persons with a
dispute waive their rights to file a lawsuit, to proceed in court and to a jury trial, and
instead submit their disputes to a neutral third person (an arbitrator) for a binding
decision. You have the right to opt out of this Arbitration Provision if you follow the
instructions set out in the paragraph titled “Right to Opt Out” below.
PLEASE READ THIS PROVISION CAREFULLY. IT PROVIDES THAT
ALL DISPUTES ARISING OUT OF OR RELATED TO THIS CREDIT
CARD CONTRACT SHALL BE RESOLVED BY BINDING ARBITRATION.
ARBITRATION REPLACES THE RIGHT TO GO TO COURT. IN THE ABSENCE
OF THIS ARBITRATION AGREEMENT, YOU AND WE MAY OTHERWISE HAVE
HAD A RIGHT OR OPPORTUNITY TO BRING CLAIMS IN A COURT, BEFORE

LI

STATE DISCLOSURES
California Residents: A married applicant may apply for a separate Credit
Account. As required by law, you are hereby notified that a negative credit
reporting reflecting on your credit record may be submitted to a Consumer
Reporting Agency if you fail to fulfill the terms of your credit obligations. After credit
approval, each applicant shall have the right to use the Credit Account up to the
limit of the Credit Account. Each applicant may be liable for amounts extended
under the plan to any joint applicant.
Delaware Residents: Service charges not in excess of those permitted by law will
be charged on the outstanding balances from month to month.
Kentucky Residents: You may pay the unpaid balance of your Credit Account in
whole or in part at any time.
Maryland Residents: Finance charges will be imposed in amounts or at rates not
in excess of those permitted by law.
Maine Residents: Credit insurance provided herein is voluntary and you have the
right to cancel such credit insurance at any time.
Vermont Residents: First PREMIER Bank may obtain a consumer report for any
legitimate purpose in connection with your Credit Account or your application,
including but not limited to reviewing, modifying, renewing and collecting on
your Credit Account. Upon your request, we (First PREMIER Bank) will inform
you of the names and addresses of any Consumer Reporting Agencies that have
furnished the reports.
Ohio Residents: The Ohio laws against discrimination require that all creditors
make credit equally available to all credit worthy customers, and that Consumer
Reporting Agencies maintain separate credit histories on each individual upon
request. The Ohio Civil Rights Commission administers compliance with this law.
Married Wisconsin Residents: No provision of any marital property agreement,
unilateral statement, or court order applying to marital property will adversely
affect a creditor’s interests unless prior to the time credit is granted, the creditor
is furnished with a copy of the agreement, statement, or court order, or has actual
knowledge of that provision.
Washington Residents: A service charge will be computed on the outstanding
balance for each month. You may at any time pay your total unpaid balance.

N

O

YOUR BILLING RIGHTS
KEEP THIS DOCUMENT FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the
Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement: If you think there is an
error on your statement, write to us at:
First PREMIER Bank
P.O. Box 5524
Sioux Falls, SD 57117-5524
(You may also contact us on the Web: www.mypremiercreditcard.com.)
In your letter, give us the following information:
• Account information: Your name and Credit Account Number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what
you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your Statement.
• At least three business days before an automated payment is scheduled, if you
want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing (or electronically). You may call
us, but if you do we are not required to investigate any potential errors and you
may have to pay the amount in question.
What Will Happen After We Receive Your Letter: When we receive your letter,
we must do two things:
(1) Within 30 days of receiving your letter, we must tell you that we received your
letter. We will also tell you if we have already corrected the error.
(2) Within 90 days of receiving your letter, we must either correct the error or
explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on
that amount.
• The charge in question may remain on your Statement, and we may continue to
charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the
remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send you a statement
of the amount you owe and the date payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write
to us within 10 days telling us that you still refuse to pay. If you do so, we cannot
report you as delinquent without also reporting that you are questioning your bill.
We must tell you the name of anyone to whom we reported you as delinquent, and
we must let those organizations know when the matter has been settled between
us.
If we do not follow all of the rules above, you do not have to pay the first $50.00 of
the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases: If you
are dissatisfied with the goods or services that you have purchased with your credit
Card, and you have tried in good faith to correct the problem with the merchant,
you may have the right not to pay the remaining amount due on the Purchase.
To use this right, all of the following must be true:
(1) The Purchase must have been made in your home state or within 100 miles
of your current mailing address, and the Purchase price must have been more
than $50.00. (Note: Neither of these are necessary if your Purchase was based
on an advertisement we mailed to you, or if we own the company that sold you
the goods or services.)
(2) You must have used your credit Card for the Purchase. Purchases made with
Cash Advances from an ATM or with a check that accesses your Credit Account
do not qualify.

M-131925

UNS

08/20

First PREMIER Bank
CREDIT CARD CONTRACT AND
ACCOUNT OPENING DISCLOSURES (cont’d)
This Contract explains the terms and conditions of your Credit Account with us,
including important provisions relating to arbitration and litigation. For additional
important information on fees and INTEREST CHARGES and other contract
provisions that apply to your Credit Account, please review the Account
Opening Disclosures printed on the card carrier containing your Card. Be
sure to retain all Contract documents for future reference.
YOUR CONTRACT WITH US
Your Mastercard® or Visa® brand Credit Account is governed by the terms and
conditions in this Contract and the Account Opening Disclosures printed on the
card carrier containing your Card (“Contract”).
Applicable Law: No matter where you live, our Contract with you and the terms
of your Credit Account will be governed by the laws of the State of South Dakota
and applicable federal law.
Effective Date: Unless you are a resident of the State of New York, this Contract
is effective upon the earlier of (1) the first Purchase made or Cash Advance taken
on your Credit Account, and (2) the expiration of 30 days from the date we issue
the Card to you if you do not provide us written notice of your desire to cancel
within this 30 days. If you are a resident of the State of New York, this Contract is
not effective until the earlier of (1) the first Purchase made or Cash Advance taken
on your Credit Account, and (2) the date you move from the State of New York,
unless the date you move from the State of New York is less than 30 days from
the date we issue a Card to you, in which case this Contract will be effective on
the date that is 30 days from the date we issue a Card to you (and not the date
you move from the State of New York) if you do not provide us written notice of
your desire to cancel within this 30 days. In all cases, if any fees are required to
be paid prior to opening your Credit Account, this Contract will not be effective and
your Credit Account will not be opened until such fees are paid in full. You are not
obligated to pay any fees or INTEREST CHARGES (other than any fees required
to be paid prior to opening your Credit Account) until this Contract is effective.
DEFINITIONS USED IN THIS CONTRACT
In this Contract, “we”, “us” and “our” each refer to First PREMIER Bank (the
“Bank”).
“Authorized User” means any person authorized by you to use the Card or
Credit Account.
“Billing Cycle” begins on the day after the Statement Closing Date of the previous
Statement and includes the Statement Closing Date of the current Statement.
“Card” means all the plastic credit cards we issue to you or any other person who
is authorized to use the Credit Account. In the event we issue other devices by
which you can access your Credit Account, those devices will also be “Cards” for
purposes of this Contract.
“Closing Date” means the last day of any Billing Cycle.
“Credit Account” means the credit card account that we open for you and the
relationship that is established between you and us by this Contract. This Credit
Account is used to record transaction activity made by you when you access or
otherwise utilize the line of credit we extend to you when you use your Card.
“New Balance” means the outstanding balance of your Credit Account at the
end of any Billing Cycle. The New Balance is the sum of the Previous Balance
(defined as the New Balance shown on your last Statement) less payments and
credits, plus new Cash Advances and Purchases and our charges posted during
the Billing Cycle.
“Payment Due Date” means the date we must receive your payment, which is not
less than 27 days from the Closing Date.

N

ABOUT YOUR PAYMENTS
Amount of Payment, Avoiding Late Fees, and Payment Instructions: You
must make a payment by the Payment Due Date in each billing cycle that has a
New Balance. The amounts you owe are shown in the “Payment Information” box
on the first page of your Statement. To avoid a Late Payment Fee, we must receive
a payment at least equal to the Minimum Payment plus the Past Due Amount
shown on your Statement by 5 pm Central Time (referred to as the payment cutoff
time) on your Payment Due Date. You can make a payment by mail, by phone,
by bill payment service, or online. Instructions on making a payment and when
the payment will be credited to your account are included on your Statement.
Generally, credits from merchants are not treated as payments and will not reduce
the amount you must pay each Billing Cycle. The Payment Due Date will be at
least 27 days from the Statement Closing Date. Your Payment Due Date will be
the same date each month. You can pay all or any portion of your balance owed
on your Account at any time.
Applying Your Payments: We may apply your payment to whichever balances
we choose to the extent it does not exceed the Total Minimum Amount Due
shown on your Statement. The amount of your payment in excess of the Total
Minimum Amount Due will be applied to balances subject to the highest APR
prior to balances subject to lower APRs. We may apply your payment to principal
amounts, INTEREST CHARGES, fees and other charges in any order we choose,
and we may change the order of application of payments from time to time at our
discretion.
Availability of Credit: Available credit created as a result of payments posted
to your Credit Account may not be available for up to 20 days, or even longer
if circumstances warrant an additional hold, or if we deem ourselves at risk for
any reason. Your available credit may be limited, from time to time, if you provide
your Credit Account number or Card to a merchant that processes advance
authorizations, such as hotels, motels and car rental. Such an authorization may
limit your ability to make Purchases and take Cash Advances on your Credit
Account until the authorization is canceled by the merchant and your available
credit is released.
Electronic Check Presentment: When you send us a personal check, you
authorize us to either use information from your check to make a one-time

electronic transfer from your account, or to process the payment as a check
transaction. If your check is processed electronically, your canceled check will
not be returned to you by your financial institution. We will retain an image of
your electronically processed check(s) as required by law. If requested prior to
the time we are allowed by law to destroy electronically processed checks, we
will provide you with a copy of your electronically processed check(s) upon your
request. Funds may be withdrawn from your bank account as soon as the day your
payment is received. We agree to accept your checking account statement as
proof of payment. The description on your checking account statement will read:
PREMIER CR CARD CHECK-PAYMT, serial number of the check, amount of the
payment and date of the transaction. If you choose to opt out of electronic check
presentment, please call our Customer Service Department at 1-800-987-5521.
Late Payments: We may accept late payments, partial payments or checks or
other payment instruments marked to impose terms or conditions of acceptance
such as “paid in full” without waiving any of our rights under this Contract, and no
attempt by you to impose any term or condition of acceptance will be effective
against us. Satisfaction of a debt for less than the full amount due or imposition
of any other term or condition on us requires a written agreement, signed by an
authorized Bank representative.
DEFAULT PROVISIONS
Events of Default: You will be in default of this Contract if any of the following
occur on this or any Related Credit Account:
• You do not pay at least the Total Minimum Amount Due on your Credit
Account on or before the Payment Due Date.
• You die or become legally incompetent.
• You become insolvent or bankrupt.
• You exceed or attempt to exceed your Credit Limit.
• You provide us with or have provided us with false or misleading information
or signatures at any time.
• You fail to comply with this Contract.
• You fail to make any payment or perform any promise in any agreement or
obligation you have with us.
• Any judgment, lien, attachment or execution is issued against you or your
property.
• You request an excessive number of replacement Cards.
• We reasonably believe that you will not pay amounts owed to us for any
reason.
If You Are In Default: Upon your default of this Contract, we will have all remedies
provided by law including, without limitation, and without prior notice or demand,
the right to:
• Deny use of your Credit Account.
• Close or refuse to renew your Credit Account.
• Demand the return of your Card(s).
• Declare your entire balance immediately due and payable.
• Initiate collection activity.
• Not replace your Card(s).
Collection Costs: To the extent permitted by law, you must pay all court and
collection costs, including reasonable attorneys’ fees, the costs of placing your
Credit Account in the Warning Bulletin and the costs of confiscating your Card,
that we incur as a result of your default.

E

O

C

CLOSING YOUR CREDIT ACCOUNT
We May Suspend or Close Your Credit Account: We may suspend your Credit
Account privileges or permanently cancel and close your Credit Account at any
time, for any reason.
You May Close Your Credit Account: You may cancel your Credit Account at
any time by notifying us by telephone or in writing. Even after your Credit Account
is closed, you remain responsible for paying any amounts you owe on the Credit
Account according to the terms of this Contract. If this is a joint Credit Account,
either of you may request that the Credit Account be closed and we will honor
that request. If your account is billed a Monthly Fee, refer to the Account Opening
Disclosures included on the credit card carrier for information about the billing
of the fee when the account is closed. If your account is billed an Annual Fee or

Monthly Fee, refer to the back of your monthly Statement for information on how
to avoid the fees.
Non Use Inactivity Closure: If you have never made a payment or used your
Credit Account for a Purchase or Cash Advance, your Credit Account will be
automatically closed, and all fees posted to your Credit Account will be reversed,
when your Credit Account becomes 50 days delinquent (75 days from the initial
Statement Closing Date if you are a resident of the State of New York).
REFUND DISCLOSURE
Initial Fee Refunds: The following describes our policy concerning the refund of
initial fees (those fees that are billed on your first statement):
When we will provide a full refund. We will refund the initial fees if you
have not made a Purchase or obtained a Cash Advance and either of the
following are true:
• Your account is closed within 11 days following the payment due
date shown on your first billing statement; or
• Your account is closed before you pay anything after receiving a
billing statement.
When we will provide a partial refund. If your account is closed more than
11 days after the payment due date on your first billing statement, we will
refund the unpaid amount of the outstanding fees even if you have made a
payment after receiving a billing statement as long as you have not made
a Purchase or obtained a Cash Advance. However, we will not refund any
amount you have previously paid, including any other fees billed to your
account.
When we will not provide a refund. We have no obligation to refund fees
or interest after you make a Purchase or obtain a Cash Advance following
receipt of these disclosures.
Credit Limit Increase Fee Refunds: We will refund the Credit Limit Increase
Fee if you reject the credit limit increase within 30 days after the date of the billing
statement on which the fee is billed. This will result in a reversal of the credit limit
increase.
OTHER TERMS AND CONDITIONS
Severability: If any provision of this Contract is invalid or unenforceable, it shall
not affect the validity or enforceability of any other provision of this Contract.
Changing This Contract: We may change this Contract from time to time. For
example, we may change your Credit Account number or the Minimum Payment,
add new INTEREST CHARGES or fees, change the ANNUAL PERCENTAGE
RATE or change the method of computing the balance upon which we impose
INTEREST CHARGES. We may also make other changes. We will notify you in
writing of any change if required by law. Contract changes will apply to amounts
you owe at the time the change is effective and to new transactions on your Credit
Account, unless otherwise required by law.
Use of Credit Reports: You authorize us to access and use your credit reports
from the consumer reporting agencies for any purpose permitted by law which
may include whether to extend, increase, or decrease credit, reviewing, renewing
or servicing your Credit Account, or determining whether to offer other products
or services to you.
Information Sharing: The following describes your agreement with us with
respect to information sharing. By requesting, obtaining or using a Credit Account
from us you agree that we may release information in our records regarding you
and your Credit Account:
• To comply with any properly served subpoena or similar request issued by
a state or federal agency or court.
• To share your credit performance with Consumer Reporting Agencies and
other creditors who we reasonably believe are or may be doing business
with you on your Credit Account.
• To provide information on your Credit Account to any third party who we
believe is conducting an inquiry in accordance with the Federal Fair Credit
Reporting Act.
• To share information with our employees, agents or representatives
performing work for us in connection with your Credit Account.

PY

RECEIVING STATEMENTS, OTHER INFORMATION AND
COMMUNICATIONS FROM US
Where We Send Statements: We will send Statements and any other notices
to you at the address shown in our files. If this is a joint Credit Account, we can
send Statements and notices to either of you. You agree to notify us promptly
of any change in your address. We may accept address changes or corrections
from the United States Postal Service. We may also mail Statements and other
communications to you at any address we determine to be an address at which
you can receive mail. If you elect to receive Statements and other communications
electronically, we may send those Statements and communications as directed
by you.
When You Receive Your Statements: We will send you a Statement at the end
of each monthly Billing Cycle in which your Credit Account has a debit or credit
balance of more than $1.00, if an INTEREST CHARGE has been imposed or if
other account activity has occurred. Your Statements will arrive around the same
time each month, however we reserve the right to change the date of your Billing
Cycle at any time.
Understanding Your Statement: The Statements we send to you will reflect the
activity and our INTEREST CHARGES and other charges, costs and fees on your
Credit Account during the Billing Cycle. They will also show your Total Minimum
Amount Due and Payment Due Date, which is the date by which we must receive
payment. The information contained on the Statement will be deemed to be
correct unless you advise us in writing of any error within 60 days of the date
on which we send your Statement. If there are more than one of you living at

LI

USING YOUR CREDIT ACCOUNT
Your Promise To Pay: You agree to pay us for all charges, Cash Advances,
INTEREST CHARGES, Purchases and fees incurred on your Credit Account
by you, or by any Authorized User, as well as any other fees imposed by us,
as explained in this Contract. If more than one person requests or accepts the

different addresses, we will send the Statements only to the person named as the
“Applicant” in your application.
Consent to calls and messages using autodialer, prerecorded message
and artificial voice: You agree and expressly consent that we and our agents,
affiliates, contractors, subcontractors, and assignees may call or contact you at any
cellular, mobile, home, work, or other telephone number, electronic mail address,
or other digital or electronic communication terminal, link, point or address of any
kind whatsoever that (a) you provide or use to contact us, (b) we obtain from
a third party such as an employer, friend, family member, another creditor, or
person with whom you have done business, or (c) we obtain through any legal
means, including without limitation, a caller identification system that captures
your number. You expressly consent to receiving calls, text messages and other
communications from us, our agents, affiliates, contractors, subcontractors, and
assignees on any number that is assigned to a cellular telephone service, wired
telephone service, paging service, facsimile machine, specialized mobile radio
service, radio common carrier service, internet protocol service, or other electronic,
digital or analog service that is placed through or utilizes an automatic telephone
dialing system, artificial voice or pre-recorded message, or any other technology,
even if you incur a cost when we contact you. You accept responsibility for all
costs you incur when contacted through any of these means.
Indemnification: You agree to indemnify us for all damages, costs and expenses,
including reasonable attorney fees, we incur when we attempt to contact you at
any third party’s telephone number that you provide to us, including any number
for which you fail to notify us is no longer associated with you as the subscriber.
E-mail: By providing us with your e-mail address, you consent to receive
correspondence electronically from us and our affiliates and service providers.
You agree that we may communicate with you by e-mail for any lawful reason.
Other Communication Devices: If you provide us with any other form of
electronic communication mechanism, you agree that we may communicate with
you by that mechanism for any lawful reason.

N

USING YOUR CARD
Sign Your Card: Be sure to sign your Card before you use it.
If You Do Not Want the Card: If you do not want the Card and Credit Account, you
must contact us by telephone or in writing asking us to close your Credit Account.
Do Not Give Your Card to Others: Cards may not be given to anyone else to use.
Other people who want a Credit Account should apply separately.
Your Responsibility for Authorized Users: If another person is given access to
your Credit Account with your express or implied permission, notwithstanding the
provision above, that person is an Authorized User, even if we did not issue an
additional Card in the Authorized User’s name. At your request, and if we agree,
we may issue an additional Card in the name of an Authorized User with your
Credit Account number.
You will be responsible for all charges, Cash Advances, INTEREST CHARGES,
Purchases and fees incurred by any Authorized User. We are not required to try
to obtain payment from any Authorized User before requiring payment from you.
If you wish to remove an Authorized User from your Credit Account you must
contact us either by telephone or in writing. You will still be responsible for payment
of all Purchases, Cash Advances, INTEREST CHARGES and fees incurred or
obtained by the Authorized User. We may close your existing Credit Account and
issue you a new Card and account number. You and each Authorized User agree
that we may report account information to Consumer Reporting Agencies in the
names of both you and the Authorized User.
Lost or Stolen Cards: To protect your rights, you must notify us immediately at
1-800-987-5521 if your Card is lost or stolen or if you suspect that it has been
used or may be used without your permission. If your Card is reported as lost or
stolen or you are claiming unauthorized use of your Credit Account or Card, we
may require you to file one or more reports with the appropriate law enforcement
agencies and us prior to our removal of possible unauthorized charges made
against your Credit Account. You will not be liable for unauthorized use of your
Card. Certain exceptions apply.
Refusal to Accept Your Card: We are not responsible if any person or merchant
does not accept your Card, or if an ATM or other device fails to properly operate.
All transactions, even when you get a receipt, are subject to our final verification.
Cards Are Our Property: You agree to return each Card issued on your Credit
Account to us upon our demand.

Credit Account, each and every person individually and jointly are responsible for
payment until the account is paid in full.
Joint Account Holders: If this is a joint Credit Account, each person who signed
the application: (1) may obtain Purchases and Cash Advances not to exceed the
total credit limit; (2) will be responsible for paying all amounts owed; and (3) can
close the Credit Account.
Accessing Your Credit Line: You can use the Card and your Credit Account to
make Purchases and obtain Cash Advances. Upon your request, you may be
assigned a Personal Identification Number (PIN). If a PIN is assigned to you, you
can obtain a Cash Advance at any authorized ATM by using the Card and PIN.
Understanding Your Credit Limit: Your “Credit Limit” is the maximum amount of
credit we have approved for your Credit Account. The amount of your Credit Limit
is printed on the card carrier containing your Card and on your Statements. Your
balance may not exceed your Credit Limit at any time. At our sole discretion, we
may honor Purchases or Cash Advances in excess of your Credit Limit without
raising your Credit Limit. If we do, we may require you to pay us any amount
over your Credit Limit immediately. Decisions on Credit Limit increases may be
based on your performance under this Credit Account and other Related Credit
Accounts you have with us and other credit criteria. If we have previously allowed
your balance to exceed your Credit Limit, it does not mean that we will permit your
balance to exceed your Credit Limit again. We reserve the right to approve or deny
authorizations or transactions from any merchant at our sole discretion.
Obtaining Cash Advances: You may take Cash Advances on your Credit
Account in any of the following ways: By presenting the Card to us or any other
participating Mastercard® or Visa® financial institution to obtain cash, by using
the Card at an authorized merchant, other non-bank entity, or an Automated Teller
Machine (ATM) or other device to obtain cash or cash equivalent, or to make a
transfer from your Credit Account to any other deposit or loan account. Even if you
use your Credit Account to obtain cash from a non-bank entity, the transaction will
be described as a Bank Cash Advance.
You may not take Cash Advances in excess of $500.00 per day. The minimum
Cash Advance per transaction is $20.00. For Credit Accounts opened on or after
June 1, 2003, your initial Cash Advance limit will be 10% of your assigned Credit
Limit. Once your Credit Account has been open and active for a minimum of 90
days, has two consecutive months of current payment history, is not currently
delinquent and no payments have been returned for the past 60 days, your Cash
Advance availability may be increased to 50% of the assigned Credit Limit. For
example, if your Credit Limit is $250.00, your beginning Cash Advance limit will be
$25.00 and may increase to $125.00 once the criteria above are met.

O

“Proper Form” means a payment sent by mail or courier that:
• is by check, money order, or cashier’s check payable in US dollars (do not
send cash)
• is payable to First PREMIER Bank (no third-party checks)
• includes your payment coupon, or includes your name and account number
on the check
“Related Credit Account(s)” means any Credit Accounts established using the
same Social Security Number.
“Statement” is a summary of your Credit Account activity provided to you at the
end of each Billing Cycle.
“Total Minimum Amount Due” means the total minimum amount we request that
you pay each month as indicated on your Statement. This amount includes the
Minimum Payment, any Past Due Amount and any Amount Over Limit Due, which
is the amount by which the New Balance exceeds your Credit Limit. (See the
Minimum Payment provisions on the Account Opening Disclosures printed on the
card carrier containing your Card for more information on how the “Total Minimum
Amount Due” is calculated.)
“You” and “your” mean each and every person who is authorized to use the
Credit Account, including Authorized Users, joint account holders and other
persons you authorize to use the Card.
Other important words used in this Contract begin with capital letters. They are
defined throughout this Contract.

• To communicate information as to our transactions or experiences with
you to persons or entities related by common ownership or affiliated by
corporate control or with any third party (including non-affiliates).
We may also share information such as: (1) information other than our own
transactions with you with persons or entities related to the Bank by common
ownership or corporate control; or (2) information on your Credit Account
with certain companies to provide or offer you selected products, services
or cardholder benefits. You may direct us not to share one or both of these. If
this is your request call 1-800-987-5521 or notify us in writing at First PREMIER
Bank, P.O. Box 5528, Sioux Falls, SD 57117-5528. Be sure to include your name,
address and Credit Account number. You may receive a copy of our information
on your Credit Account by writing or calling us at the address or telephone number
listed above. By requesting or obtaining a Credit Account, you authorize us to
check your credit history. You authorize your employer, bank and any other
references listed to release and/or verify information to us and our affiliates in
order to determine your eligibility for the Credit Account and any renewal or future
extension of credit. If you ask, you will be told whether or not consumer reports
on you were requested and the names of the Consumer Reporting Agencies, with
their addresses, that provided the reports. If you designate an Authorized User to
use your Card, you understand that account information may also be reported to
Consumer Reporting Agencies in the Authorized User’s name.
No Waiver: Even if we do not exercise any right we may have against you, we do
not intend to waive that right. We can exercise it against you in the future.
Binding Effect Upon Death or Incompetency: If we pay a merchant for a
Purchase or post a Cash Advance to your Credit Account before we receive
actual written notice of your death or incompetence, or if we pay a merchant for
a Purchase made by you or post a Cash Advance taken by you prior to your
death or incompetence, that transaction will be a valid and binding Credit Account
obligation upon you, your estate and your personal representatives.
Our Liability To You: We have no liability to you, other than as placed on us by
law. We will meet our duty to care for your Credit Account(s) under reasonable
banking procedures. Our mere clerical error or honest mistake will not be
considered a failure to perform any of our obligations.
Transactions in Foreign Currencies: If you make a transaction in a foreign
currency, it will be converted into U.S. dollars, and you agree to accept the
converted amount. Visa USA, Inc. or Mastercard International, Inc. will use its
currency conversion procedures in effect when processing the transaction.
The currency conversion rate will be a rate selected by Visa or Mastercard, as
applicable, from the range of rates available in wholesale currency markets for
the applicable central processing date, which rate may vary from the rate Visa
or Mastercard itself receives, or the government-mandated rate in effect for the
applicable central processing date, in each instance, plus a foreign currency
transaction fee in the amount disclosed on your Account Opening Disclosures
printed on the card carrier containing your Card. This fee will be paid to us and
applied to all transactions posted to your Credit Account in a foreign currency,
including all Purchase transactions, Cash Advance transactions, ATM transactions
and returns and adjustments (e.g., for returned merchandise). The currency
conversion rate used on the processing date may be different than the rate
that was in effect on the date you conducted the transaction. We do not set the
currency conversion rate, and we do not receive any portion of it. We do, however,
receive a foreign currency transaction fee as disclosed on your Account Opening
Disclosures printed on the card carrier containing your card.
Prohibition on Gambling and Illegal Transactions: Your Card and Credit
Account may not be used in connection with any gambling transaction (whether
legal or illegal). Also, your Card and Credit Account may be used only for valid
and lawful purposes. If you use, or allow someone else to use your Card or Credit
Account for any unlawful purpose or for any gambling transaction, you will be
responsible for such use and may be required to reimburse us for all amounts or
expenses we pay as a result of such use.
Call Recording: You agree and consent that we will record and may monitor
any calls between you and us. This includes both calls to and originated by First
PREMIER Bank, PREMIER Bankcard, LLC, our parent corporation, or any of our
affiliates, agents, independent contractors or service providers.

